r

\

V

h

/?m

;

I

}■ J

h ■
■■

u i:.: v.,;:;

L,

No.

b'

3fn

)t

Supreme Court of tfje ®mteb States*
I-.

REED MCDONALD,
Petitioner,
v.
BELLCO CREDIT UNION,
Respondent.

On Petition For Writ Of Certiorari To The
Colorado Supreme Court / Court Of Appeals

PETITION FOR WRIT OF CERTIORARI

Reed McDonald, pro se
4059 W. Hillside PI.
Littleton, Colorado 80123
720-589-3160
Kirkmcdonald56@gmail.com

*

RECEIVED
JAN 1 7 20?n

1

QUESTION PRESENTED FOR REVIEW
The specific question presented is: Whether a
State judge can fabricate a lie into the Record attempt­
ing to prevent removal of a state case to federal court
pursuant to 28 U.S.C. § 1441-1446.

; GGVrGOT ;
\ i ■£&.

i

11

RELATED CASES
McDonald v. Eagle County, Colorado &
Bellco Credit Union
U.S. District Court for the District of
Colorado 2018cvl05
The Magistrate’s opinion was reversed on N
03/06/2019 by Article III Judge Christine M. Arguello.
Docket 81, Note #1.
McDonald v. Eagle County, Colorado &
Bellco Credit Union
10th Circuit Court of Appeals Case 19-1101
Active Appeal
McDonald v. Arapahoe County, Colorado
Supreme Court of the United States
Petition for Cert, denied June 3, 2019,18-1290
McDonald v. Zions First National Bank et al.
Eagle County District Court, Colorado Case # 2009cv604
Case is ongoing because Eagle County refuses
to obey the Colorado Court of Appeals
McDonald v. Eagle County District Court
Colorado Court of Appeals Case 2011cal537
Mr. McDonald prevailed on appeal against
Eagle County, Colorado Judgment issued on
October 5, and November 2, 2011

Ill

TABLE OF CONTENTS
Page

v.

Question Presented for Review..............................
Related Cases..........................................................
Table of Authorities................................................
Petition for a Writ of Certiorari.............................
Opinions Below.......................................................
Statement of Jurisdiction.......................................
Constitutional and Statutory Provisions..............
Statement of the Case.................................;..........
I. Brief Factual Background...........................
II. Relevant Proceedings Below.......................
III. Additional Facts...........................................
Argument.... ................ ......................... ..................
I. The Colorado Supreme Court refuses to
uphold and enforce and honor the Consti­
tution and federal removal law 28 § U.S.C.
1446..........................................................'.....
II. The Colorado Court of Appeals refuses to
address judicial lying and seeks to over­
turn this Court’s black letter opinions and
federal precedent........................................
III. Colorado’s history of prejudice against
this pro se party..........................................
IV. This case is about jurisdiction...................
V. Congressional intent...................................
Reasons for Granting the Petition.........................
Conclusion....................................... ;.......................

1

n
v
1
1
1
1
2
2
3
3

4

4

5
8

10
10
11
11

IV

TABLE OF CONTENTS - Continued
Page
APPENDIX
Order and Judgment of the Colorado Court of
Appeals............................................................. App. 1
Order and Judgment of the Arapahoe County,
Colorado District Court
App. 10
Notice of Removal filed on January 24, 2018 .... App. 19
Order and Judgment of the Colorado Supreme
Court
App. 38
Arapahoe County, Colorado District Court
Minute Order containing false representation
by State Judge
App. 41

V

TABLE OF AUTHORITIES
Page
Cases:
Anderson v. State Farm Mutual Insurance Co.,
917 F.3d 1126 (9th Cir. 2019)..............................

5

Blazer Elec. Supply Co. v. Bertrand,
952 P.2d 857 (Colo. App. 1998)............................

6

Loctite Corp. v. Dist. Court,
718 P.2d 252 (Colo. 1986).....................................

6

Lugar u. Edmondson Oil Company, Inc.,
457 U.S. 922 (1982)...............................................

7

Misco Leasing, Inc. v. Vaughn,
450 F.2d 257 (10th Cir. 1971)..............................

8

Motion v. Lockheed Martin Corp.,
692 So.2d 6 (La. Ct. App. 1997)...........................

8

South Carolina v. Moore,
447 F.2d 1067 (4th Cir. 1971)..............................

8

Taft v. Donellan Jerome, Inc.,
407 F.2d 807 (7th Cir. 1969)............................. .

8

Constitutional Provisions:
Fourteenth Amendment;
due process...........................

.1

Fourteenth Amendment;
equal protection of the law

1

VI

TABLE OF AUTHORITIES - Continued
Page
Federal Statutes:
28 U.S.C. § 1257(a)....

1

28 U.S.C. § 1441-1446

i, 2, 8,10,11

State Statute:
§ 13-80-103.5 C.R.S (2012)

7

1
PETITION FOR WRIT OF CERTIORARI
I, Reed McDonald, respectfully petition for a writ
of certiorari to review the judgment of the Colorado Su­
preme Court.

OPINIONS BELOW
The Colorado Supreme Court opinion is reported
at 2019sc475. The opinion of the Colorado Court of Ap­
peals is reported at 2018ca689. The Arapahoe County
District Court opinion is reported at 2017cvl62.

STATEMENT OF JURISDICTION
The judgment of the Colorado Supreme Court was
entered on September 23, 2019. A petition for rehear­
ing was denied on October 17, 2019. Thus, 28 U.S.C.
§ 1257(a) confers jurisdiction on this Court.

CONSTITUTIONAL AND
STATUTORY PROVISIONS
The Due Process Clause of the Fourteenth Amend­
ment provides that no State shall “deprive any person
of life, liberty, or property without due process of law.”
The equal protection of the law of the Fourteenth
Amendment provides that no State shall “any State

2

deny to any person within its jurisdiction the equal
protection of the laws.”
28 U.S.C. § 1446(a) provides that a defendant can
remove any civil action from a state court to federal
court.
28 U.S.C. § 1446(d) provides “the State court shall
proceed no further unless and until the case is re­
manded.”
Judges of the State of Colorado take an oath to up­
hold the Constitution and abide by Colorado Code of
Judicial Conduct. Judicial lying to preserve jurisdiction
is not a part of the Colorado Code of judicial conduct.

STATEMENT OF THE CASE
I.

BRIEF FACTUAL BACKGROUND

The facts alleged and material evidence in the
Federal/State courts record establishes, Colorado, Arap­
ahoe County’s judge lied in and on the record to pre­
vent Mr. McDonald’s removal on January 25, 2018.
The State judge making the false representation,
“Mr. McDonald did not file for removal” in State case
2017cvl62 on January 24, 2018.
Material evidence in the federal/State record es­
tablishes, notice of removal for the subject State case
and federal court was filed, stamped and recorded in
the State Clerk’s office on January 24, 2018.

\

3

The Colorado Supreme Court knowledgeable in
the material fact its State judged willfully lied on the
record with the intent to prevent removal and to harm
Mr. McDonald, refused to address the judge’s criminal
behavior.
The State case removed to federal court, and effec­
tuated. Bellco did not request remand, nor did the fed­
eral court remand the case back to State court.
The State’s jurisdiction lost to federal court, the
state judge continued holding proceedings without Mr.
McDonalds knowledge and or presence, and granted
summary judgment to Bellco while it was without ju­
risdiction. (“The law is clear, removal to federal court
divested the state court of jurisdiction.”)
II.

RELEVANT PROCEEDINGS BELOW

Currently, the State case is in federal court before
the District of Colorado and the 10th Circuit Court of
Appeals. Those cases are cited as 2018cvl05 and 191101.
III. ADDITIONAL FACTS
District of Colorado Article III Judge, the Honora­
ble Christine M. Arguello ruled Eagle County, Colorado
is violating Mr. McDonald’s civil rights, and refusing
to conclude Mr. McDonald’s case in state court since
2011.

4
ARGUMENT
I.

THE COLORADO SUPREME COURT RE­
FUSES TO UPHOLD AND ENFORCE AND
HONOR THE CONSTITUTION AND FED­
ERAL REMOVAL LAW 28 § U.S.C. 1446

Mr. McDonald filed notice of removal in both State
and federal courts on January 24,2018. Appendix Doc­
ument p. 19. Thereby, combining Bellco Credit Union’s
case with existing federal case 2018cvl05 because the
cases are intertwined. In the federal case Bellco and
the national banks refused to obey the Colorado Court
of Appeals Order and Judgement issued since 2011.
Thereafter, the State judge attempted to prevent
removal by falsely representing (lying) in the State
court’s record. The State judge making the false state­
ment “Mr. McDonald did not file notice of removal in
the clerk of court’s office” (record). Appendix Document
p. 41.
The material evidence in this case is indisputable;
the State clerk of the court received Mr. McDonald’s
notice of removal which was filed and stamped in the
clerk’s office on January 24,2018. Appendix Document
p. 19.
After Mr. McDonald’s removal was effectuated to
federal court, Bellco did not file for remand, nor did the
federal court remand the case back to State court. See
District of Colorado Case 2018cvl05; currently at the
10th Circuit Court of Appeals, case 19-1101.
In federal case 2018cvl05, Eagle County, Colorado
and Bellco refused to obey the Colorado Court of Appeals

5
restoring Mr. McDonald’s rights secured under Consti­
tution since 2011. In that federal case, the Article III
Judge, the Honorable Christine M. Arguello ruled Eagle
County, Colorado is violating Mr. McDonald’s civil
rights by refusing to conclude his case since 2011. In
addition, in the subject federal case the national banks
and Bellco have admitted they violated Mr. McDonald’s
rights secured under federal Truth in Lending Act,
Real Estate Settlement Procedures Act, Colorado law
and the Constitution. Bellco has admitted they tres­
passed Mr. McDonald’s gated property conducting ille­
gal search on multiple dates and refused to obey
Colorado’s Supreme Court Black letter rules.
Simply, the State case was timely removed to fed­
eral court on January 24, 2018. See Anderson v. State
Farm Mutual Insurance Co., 917 F.3d 1126 (9th Cir.
2019).
Thereafter, the State court continued proceedings
without jurisdiction. The State judge lied on the record
attempting to prevent removal, in violation of federal
law and the Constitution. A judicial lie on the record is
a criminal act. See Appendix Document p. 19.
II.

THE COLORADO COURT OF APPEALS
REFUSES TO ADDRESS JUDICIAL LYING
AND SEEKS TO OVERTURN THIS
COURT’S BLACK LETTER OPINIONS
AND FEDERAL PRECEDENT

The Colorado Court of Appeals seeks to prevent
Mr. McDonald from removing his State case to federal

6
court because the State court seeks to harm Mr.
McDonald. The appellate court allowed the State
judge to make false representations in the court’s rec­
ord, falsely stating Mr. McDonald did not file for re­
moval in the clerk’s office on January 24, 2018.
Unfortunately, for the appellate court, the facts of
the case do not support their false representation nor
their refusal to discipline a judge for lying. The copy of
Mr. McDonald’s notice of removal, filed on January 24,
2018, is in evidence, is stamped, and was filed in the
clerk’s office on January 24, 2018; there is no dispute
Mr. McDonald removed Bellco’s case to federal court on
January 24, 2018. See Appendix Document p. 19.
Federal precedent:
As a matter of federal statute, and Colorado legal
precedent, removal of an action to federal court divests
a state-court of jurisdiction while the removal petition
is pending in federal court. See, e.g., Loctite Corp. v.
Dist. Court, 718 P.2d 252,253 (Colo. 1986); Blazer Elec.
Supply Co. v. Bertrand, 952 P.2d 857, 858 (Colo. App.
1998).
Defendant/plaintiff Mr. McDonald removed Bellco’s
state-case to federal court on January 24,2018 for Con­
stitutional questions and efficiency. Thus, the statecourt lost jurisdiction on January 24, 2018 and the
federal court held jurisdiction on January 24, 2018.
The federal court’s record does not reflect remand,
or that Bellco filed for remand. Thus, the State-court

7
lacked jurisdiction to enter any order after notice of re­
moval was executed and effectuated on January 24.
2018.
Bellco’s case is intertwined with Mr. McDonald’s
federal case because Bellco in willful contradiction of
the Colorado Court of Appeals Order dated October 5,
and November 2, 2011 colluded with two national
banks by filing secret and concealed writs seizing Mr.
McDonalds bank accounts. See Colorado Court of Ap­
peals Order dated October 5, and November 2, 2011 in
case 2011cal537.
Secret and concealed writs are without authority
as they violate Supreme Court precedent. See Lugar v.
Edmondson Oil Company, Inc., 457 U.S. 922 (1982).
Bellco and the national banks clearly aware of
Colorado’s Court of Appeals decisions in 2011cal537
against Eagle County, none-the-less seized Mr. McDon­
alds accounts in violation of the Court of Appeals order,
the Constitution and Colorado law preventing him
from fulfilling his obligations.
Furthermore, Bellco after the statute of limita­
tions had run, in year 7, filed a civil action against
Mr. McDonald; the facts of the case are undisputed and
are substantiated by Bellco’s own workflow documents
in the record; Bellco filed its civil action in year 7 after
the statute of limitations had run.
Pursuant to Colorado law, a person seeking help
from the state for an alleged debt must file within 6
years. See § 13-80-103.5 C.R.S (2012). Simply, Bellco

8

was estopped by the doctrine of laches and Colorado
law from filing its civil action in year 7.
The intent of federal law 28 U.S.C.A. § 1446 is
to prevent state and federal courts from sharing juris­
diction over a case and thus avoid jurisdictional con­
flicts. Motton v. Lockheed Martin Corp., 692 So.2d 6, 8
(La.Ct.App. 1997).
Thus, as a federal rule, removal of an action di­
vests a state court from its jurisdiction over the dispute
while the removal petition is pending in federal court.
See South Carolina v. Moore, 447 F.2d 1067,1073 (4th
Cir. 1971); see also Loctite Corp., 718 P.2d at 253 (“The
law is clear that the removal to federal court divested
the state court of jurisdiction.”)
The federal court did not remand the state-case,
nor did Bellco file for remand. Thus, Mr. McDonald’s
removal was effectuated and the State-court acted
without jurisdiction after January 24, 2018.
Therefore, any state-court proceedings without ju­
risdiction and authority lie nullity. The 10th Circuit
has adjudged, courts that act without personam juris­
diction, result in nullity. Misco Leasing, Inc. v. Vaughn,
450 F.2d 257, 260 (10th Cir. 1971); Taft u. Donellan Je­
rome, Inc., 407 F.2d 807, 808 (7th Cir. 1969).
III. COLORADO’S HISTORY OF PREJUDICE
AGAINST THIS PRO SE PARTY
The Colorado legal system has a history of prej­
udice against pro se party, Mr. McDonald. In Eagle

!

9
County case 2009cv604 five (5) judges of Eagle County,
Colorado (Eagle) refuse to obey the Colorado Court
of Appeals order and judgment in Appellate Case
2011cal537 judgment issued on October 5, and No­
vember 2, 2011. Thus, they have been removed. There­
fore, this case has been removed to federal court.
The Colorado Appellate Court ruled in 2011cal537
Eagle County was violating Mr. McDonald’s civil rights
and willfully and with intent to defraud was refus­
ing to serve court orders and other documents to Mr.
McDonald during the case. Eagle ordered to restore Mr.
McDonald rights secured under Constitution; refused
and continues to refuse to restore Mr. McDonald civil
rights. Currently, that case is before the District of Col­
orado and the 10th Circuit Court of Appeals. 19-1101
In Arapahoe County, Colorado (Arapahoe), case
2012cvl58 the judge in the subject case violated Mr.
McDonald’s right secured under constitution and re­
fused to uphold and enforce federal consumer protec­
tion law. See Supreme Court of the United States Case
18-1290. Since that time the sitting judge from Arapa­
hoe County has been removed for violating Colorado
law, the Constitution and Mr. McDonald’s rights se­
cured under Constitution; that case is currently on its
way to the Colorado Supreme Court.
In this Case, the Arapahoe County Judge lied on
the record attempting to prevent removal of the Statecase to federal court. Simply, The State of Colorado has
lost control of its elected judges.

10
IV. THIS CASE IS ABOUT JURISDICTION
Judicial lying:
The salient facts of this case are; the State judge
attempted to prevent Mr. McDonald’s removal by mak­
ing intentional false representations (lies) into the rec­
ord. The State judge falsely stating on January 25,
2018, Mr. McDonald did not file for removal in Statecourt.
The undisputed facts of the case are, Mr. McDonald
did file for removal, and that motion for removal was
filed in both the state and federal court on January 24,
2018. Therefore, the removal of State case 2017cvl62
was effectuated and removed to federal court pursuant
to § 1446.
Thereafter, on January 24,2018 the United States
District Court for the District of Colorado accepted the
removal and the state-court lost jurisdiction. See Dis­
trict of Colorado Case 2018cvl05.
V.

CONGRESSIONAL INTENT

Congress in promulgating § 1446 intended to pre­
vent jurisdictional questions. The plain language of
the statute provides that once removal is filed in state/
federal courts, that case is removed. Thereafter, the
subject state court is without jurisdiction unless the
case is remanded; the subject case was never re­
manded.

11
REASONS FOR GRANTING THE PETITION
Judicial lying should not be tolerated. The State
judge to dissuade and obstruct removal made false rep­
resentations into the court’s record. After the State
judge’s false statement, the state court then continued
proceedings without jurisdiction, without my know­
ledge, and without my presence. Thus, the state court
and its judge violated black letter federal law 28 U.S.C.
§ 1446(d) which provides in part “the State court shall
proceed no further unless and until the case is re­
manded.”
Therefore, the State court exceeded its jurisdiction
and violated my rights secured under federal law and
the United States Constitution.
If state-judges are allowed to lie so they can ob­
struct justice and federal law, then the entire judicial
system is valueless and provisions granted to congress
under Constitution are useless.

CONCLUSION
Simply, Mr. McDonald removed the state-case
because that case was intertwined with an existing
federal case and the case involved Constitutional ques­
tions. In addition, the state-judge was violating Mr.
McDonald civil rights.
Once removal was effectuated on January 24,
2018, the State judge lied on and into the official record
on January 25, 2018 that Mr. McDonald had not filed
the notice of removal in State-court.

12
As the stamped notice of removal clearly pro­
vides, the State-judge lied, as the notice of removal is
stamped with the removal date of January 24, 2018.
Once the state case was removed to federal court,
the federal court did not remand, nor did Bellco file for
remand at any time.
This case concerns the State-court’s refusal to rec­
ognize the supremacy clause of the Constitution and
establishes the State-judge was willing to lie to get
her way. The State judge willfully lied without fearing
any recourse from any state agency because she knew
there would be no response, as it’s well accepted that a
Colorado judge can lie in a court case to achieve the
results she wanted, although that was illegal.
This Court must stand to confront the State
judges’ illegal activities regardless of her intent, as it
is criminal behavior.
THEREFORE, I ask this Court to reverse and re­
mand the state of Colorado case, as that court was
without jurisdiction because jurisdiction was lost to
the federal courts on January 24,2018. As a result, any
action by the state court after January 24,2018 lie nul­
lity as it was without jurisdiction.
Respectfully submitted,
Reed McDonald, pro se
4059 W. Hillside PI.
Littleton, Colorado 80123
720-589-3160
Kirkmcdonald5 6@gmail .com

App. 1
18CA0689 Bellco v McDonald 04-25-2019
COLORADO COURT OF APPEALS

DATE FILED:
April 25,2019

Court of Appeals No. 18CA0689
Arapahoe County District Court No. 17CV162
Honorable Elizabeth Beebe Volz, Judge
Bellco Credit Union,
Plaintiff-Appellee,
v.
R. Kirk McDonald,
Defendant-Appellant.
JUDGMENT AFFIRMED

'i

Division IV
Opinion by JUDGE HAWTHORNE
Fox and Harris, JJ., concur
NOT PUBLISHED PURSUANT TO C.A.R. 35(e)
Announced April 25, 2019
Nelson & Kennard, David A. Bauer, Amanda Riggs,
Lakewood, Colorado, for Plaintiff-Appellee
R. Kirk McDonald, Pro Se
R. Kirk McDonald appeals the district court’s
grant of summary judgment in favor of Bellco Credit
Union. We affirm.

App. 2
I. Facts and Procedural History
McDonald received a loan, secured by a vehicle,
from Bellco in December 2009. He made full monthly
payments until December 16, 2010.1 Bellco sued
McDonald for the loan’s outstanding balance on De­
cember 14, 2016, in county court.2
McDonald denied Bellco’s claim, asserting that it
was barred by the statute of limitations and that be­
cause Bellco “wrote off” the debt, he shouldn’t have to
pay. He also asserted numerous counterclaims against
Bellco and brought third-party claims against Bellco’s
attorney, the attorney’s law firm, and Eagle County.
The case was removed to district court at McDonald’s
request. Eagle County asked the district court to dis­
miss McDonald’s claims against it because his allega­
tions involved a different party in an unrelated prior
case. Bellco asked the court to enter judgment on the
pleadings, as did its attorney and law firm.
The court dismissed McDonald’s counterclaims
against Bellco, and all third-party claims against Bellco’s
attorney, the law firm, and Eagle County, because
McDonald failed to state any claims or to allege suffi­
cient facts warranting relief. The court also noted that
joining Eagle County in this case was inappropriate
because it found “no association between the alleged
1 He made one further partial payment not relevant to our
resolution.
2 The complaint isn’t in the record, but we may take judicial
notice of court records in a related proceeding under CRE 201 and
do so here. Harriman v. Cabela’s Inc., 2016 COA 43, H 64.

App. 3
events occurring in Eagle County and the auto loan at
issue in this case.” The court also rejected McDonald’s
statute of limitations defense because Bellco filed the
complaint within six years from McDonald’s last full
payment on December 16, 2010, and the statute of
limitations would only begin to run when any other
payments became delinquent after that date. But the
court didn’t dismiss McDonald’s argument that Bellco
“wrote off” the loan, construing the claim as a detri­
mental reliance defense and allowing McDonald an op­
portunity to present supporting evidence. Only Bellco’s
claim to recover the debt and McDonald’s detrimental
reliance defense remained in the case.
i

Months later, Bellco moved for summary judg­
ment, arguing that McDonald hadn’t produced any ev­
idence supporting his detrimental reliance defense.
Before responding to Bellco, McDonald filed a notice of
removal to federal court with the district court and
asked the district court to vacate further proceedings
because it lost jurisdiction after he filed the removal
notice. At a scheduled hearing the next day, at which
McDonald didn’t appear, the court found that the re­
moval was untimely and the case didn’t present a col­
orable question of federal law and refused to stay the
case.
McDonald answered Bellco’s summary judgment
request but failed to address Bellco’s arguments. In­
stead, he asserted that the district court didn’t have
jurisdiction over the case because he removed the case
to federal court and reasserted his statute of limita­
tions claim. He also argued that Bellco’s attempts to

App. 4
locate the vehicle securing the loan were improper, and
re-alleged his dismissed third-party claims against
Eagle County. McDonald didn’t dispute that he ob­
tained the loan from Bellco or the unpaid amount.
The court granted Bellco’s motion for summary
judgment, finding that there were no outstanding ma­
terial fact issues. It found that McDonald presented
no evidence that he detrimentally relied on Bellco’s
alleged loan write off. Specifically, the court found
McDonald “failed to present any evidence that he was
even aware” of the alleged “write off’ before Bellco filed
the lawsuit. So, the court found that estoppel or detri­
mental reliance defenses weren’t applicable and en­
tered judgment for Bellco.
II. McDonald’s Removal Wasn’t Effective Because
he Didn’t Raise a Colorable Claim
McDonald contends that because he removed the
case to federal court and filed the removal notice with
the district court, it didn’t have jurisdiction over the
case and any later entered judgments were void. We
disagree.
A. Standard of Review and Applicable Law
We review de novo whether the district court had
jurisdiction and its construction and application of
federal removal statutes. People v. Vargas-Reyes, 2018
COA 181, % 9; McDonald v. Zions First Nat’l Bank,
2015 COA 29, f 17.

App. 5
Generally, a case’s removal to federal court divests
the state court of jurisdiction while the removal peti­
tion is pending in federal court. McDonald, H 15. Under
the federal civil removal statute, “any civil action
brought in a [s]tate court of which the district courts of
the United States have original jurisdiction, may be
removed by [defendant(s)] to the district court of the
United States for the district and division embracing
the place where such action is pending.” 28 U.S.C.
§ 1441(a) (2018). Removal becomes effective when the
defendant files a notice of removal with the federal
court, files a copy of the notice with the state court, and
gives written notice to all adverse parties. 28 U.S.C.
§ 1446(d) (2018). Then, “the [s]tate court shall proceed
no further unless and until the case is remanded.” Id.
This is to prevent shared state and federal jurisdiction
over a case. McDonald, 1 19.
But Colorado has recognized an exception to this
rule that maintains a state court’s jurisdiction “where
a party’s notice of removal to a federal court indicates,
on its face and as a matter of law, that the party’s at­
tempt to remove the case was without the slightest
color of right or merit.” Id. at *][ 26.
B. Analysis
Because McDonald filed his removal notice before
the district court entered its summary judgment order
and the record doesn’t reflect that the federal court
issued a remand order, normally this would deprive
the district court of jurisdiction. Id. at 15. But,

App. 6
because McDonald’s attempted removal was without
“the slightest color of right or merit,” the district court
didn’t lose jurisdiction. Id. at f 26.
McDonald’s removal notice asserted that removal
was appropriate under federal question jurisdiction,
section 1441(c). Specifically, he argued that his constitu­
tional rights were violated by Bellco and since-dismissed
third-party defendants, and that they violated federal
statutory laws—the Fair Debt Collections Practices
Act and the Fair Credit Reporting Act.
But whether federal question jurisdiction exists in
this case depends solely on Bellco’s complaint. The
United States Supreme Court has “long held that ‘[t]he
presence or absence of federal-question jurisdiction is
governed by the “well-pleaded complaint rule,” which
provides that federal jurisdiction exists only when a
federal question is presented on the face of the plain­
tiff’s properly pleaded complaint.’” Rivet v. Regions
Bank of La., 522 U.S. 470, 475 (1998) (quoting Cater­
pillar Inc. v. Williams, 482 U.S. 386, 392 (1987)); see
Vaden v. Discover Bank, 556 U.S. 49, 60 (2009). This
rule applies equally to the federal courts’ removal juris­
diction. Franchise Tax Bd. v. Constr. Laborers Vacation
Tr., 463 U.S. 1, 10 (1983). Thus, to remove a case from
state court to federal court under federal question juris­
diction, the plaintiff’s complaint in state court must
“arise under” federal law. Vaden, 556 U.S. at 60-61.
Bellco’s complaint didn’t arise under federal law and
didn’t present a federal question.

App. 7
McDonald’s numerous federal claims can’t make
up for this deficit. A defendant can’t remove a case
under federal question jurisdiction based on a counter­
claim, whether “actual or anticipated.” Id. at 60;
Holmes Grp., Inc. v. Vornado Air Circulation Sys., Inc.,
535 U.S. 826, 831 (2002). “Similarly, [a] defendant’s
third-party claim alleging a federal question does not
come within the purview of § 1441 removability. The
third-party claim ... is a pleading by the defendant
[and] does not change the character of the plaintiff’s
complaint.” Metro Ford Truck Sales, Inc. u. Ford Motor
Co., 145 F.3d 320, 327 (5th Cir. 1998) (footnote omit­
ted). Thus, McDonald’s attempt to remove the case
by asserting counterclaims and third-party claims
couldn’t be the basis for federal question removal ju­
risdiction.
McDonald’s current removal attempt echoes his
prior unsuccessful attempt in McDonald v. Zions First
Natl Bank. There, the division concluded that because
McDonald was the plaintiff in the state case, “he had
no ability to remove this case to federal court,” so his
attempted removal was meritless and the state court
retained jurisdiction. McDonald, M 27-29. While
McDonald is the defendant this time, we again con­
clude “that [his] attempted removal was without the
slightest color of right or merit and did not deprive the
[district] court of jurisdiction to [enter] summary judg­
ment [.]”Id. at *1 29.

App. 8
III. Bellco Filed the Complaint Within the
Applicable Statute of Limitations
McDonald contends that Bellco filed the complaint
on March 23, 2017, beyond the six-year statute of lim­
itations period. We disagree.
We judicially notice the county court records in
this case. See Harriman, ^ 64. Bellco filed the com­
plaint on December 14, 2016.
Even if we didn’t take judicial notice, we would
assume that the district court’s finding that the com­
plaint was filed then is proper. Where facts don’t ap­
pear in the record, “an appellate court presumes that
material portions omitted from the record would sup­
port” the district court’s judgment. In re Marriage of
McSoud, 131 P.3d 1208, 1223 (Colo. App. 2006). The
appealing party carries the burden “to provide a record
justifying reversal, and absent such a record, we pre­
sume the regularity of the trial court proceedings.”
Alessi v. Hogue, 689 P.2d 649, 650 (Colo. App. 1984).
That McDonald is self-represented doesn’t excuse him
from following these rules. See, e.g., Finegold v. Clarke,
713 P.2d 401, 403 (Colo. App. 1985). McDonald is a
seasoned appellant in this court, and prior divisions
have repeatedly admonished him for his failure to
follow our rules. See CitiBank u. McDonald, (Colo. App.
No. 16CA0652, Apr. 27, 2017) (not published pursuant
to C.A.R. 35(e)) (dismissing appeal for failure to comply
with C.A.R. 28); CitiBank u. McDonald, (Colo. App. Nos.
14CA0759 & 14CA1359, Oct. 15, 2015) (not published
pursuant to C.A.R. 35(f)) (same).

I

App. 9
Because Bellco filed the lawsuit on December 14,
2016, McDonald’s statute of limitations defense fails.
The filing date is less than six years from McDonald’s
last full payment made on December 16, 2010, after
which any further delinquent payments would trigger
a six-year statute of limitations. See §§ 13-80-103.5(l)(a),
-108(4), C.R.S. 2018 (debt collection actions must com­
mence within six years after such debt, obligation, or
money owed becomes due); Hassler v. Account Brokers
of Larimer Cty., Inc., 2012 CO 24, 22 (“[A] separate
cause of action arises on each installment, and the
statute of limitations runs separately against each.”
(quoting 31 Richard A, Lord, Williston on Contracts
§ 79:17 (4th ed. updated 2011))).
We decline to address any remaining contentions in
McDonald’s opening brief because either (1) McDonald
didn’t raise them during the summary judgment pro­
ceedings; (2) McDonald fails to provide any legal sup­
port of record citations for them; or (3) the claims
allege errors that prior divisions of this court have
already ruled on. See McDonald u. Zions First Nat’l
Bank, (Colo. App. No. 12CA1706, July 25, 2013) (not
published pursuant to C.A.R. 35(f)).
IV. Conclusion
The district court’s judgment is affirmed.
JUDGE FOX and JUDGE HARRIS concur.

App. 10
DISTRICT COURT,
ARAPAHOE COUNTY,
STATE OF COLORADO
7325 South Potomac
Street
Centennial, Colorado
80112

DATE FILED: March 14,2018

▲ COURT USE ONLY ▲
Case Number: 2017CV162
Div. 202
Plaintiff: BELLCO
CREDIT UNION
v.
Defendant: R KIRK
MCDONALD
ORDER GRANTING PLAINTIFF’S
MOTION FOR SUMMARY JUDGMENT
THIS MATTER comes before the Court on Plain­
tiff Bellco Credit Union’s (“Bellco”) Motion For Sum­
mary Judgment (“MSJ”) seeking judgment on an
outstanding debt. The Court, having reviewed the
pleadings, file and applicable law finds that there are
no material factual issues in dispute concerning
whether a debt exists and the amount of the debt.
Therefore, for the reasons set out more fully below,
summary judgment in favor of Bellco is GRANTED.

App. 11
INTRODUCTION/BACKGROUND
1. This matter arises from a matter commenced
by Bellco to collect on an "extension of credit which.re­
mains unpaid,” in the amount of $14,664.09, originally
set out in a County Court Complaint. Co. Cmplt. Ts 3
& 4.
2. In the County Court Complaint, Bellco set
forth the amount of the debt ($14,664.09), stating that
“demand for payment has been made” on Defendant R.
Kirk McDonald (“McDonald”), and that Defendant has
“fail [ed] and refusfed] to make payment of the sums
which are now due and payable in full.” Co. Cmplt. fs
5.
3. In his initial response to the County Court
Complaint, McDonald made a general denial of the
claim. Co.Ct.Ans, %2. McDonald asserted various coun­
terclaims against Bellco, third-party claims against
Eagle County, and sought removal to the District
Court. In his Counterclaims, McDonald made the fol­
lowing allegations:
‘R22 Bellco wrote off the alleged debt . . . on
October 30, 2010.
*J[24 [The applicable] statute of limitations
. .. [of] six years . . . [means the] litiga­
tion is ‘Out-of-Time’.
Co.Ct.Ans, fs 22 & 24.
4. McDonald also asserted Third-Party claims
against Eagle County, as well as the attorney and
law firm representing Bellco, generally setting forth

App. 12
extensive details involving unrelated litigation in Ea­
gle County.
5. The matter was transferred to the District
Count on May 2, 2017.
6. On May 10, 2017 and June 23, 2017 Plaintiff
filed motions for Judgment on the Pleadings.
7. On July 11, 2017 Eagle County filed a Motion
to Dismiss.
8. On September 7, 2017 the Court entered an
Order dismissing “Defendant’s Third Party Complaint
in its entirety.” 917117 Order, \15.
9. Additionally, the Court determined that the
matter was not barred by the applicable statute of lim­
itations. 917117 Order, %’s 11-13.
10. The Court’s September 7, 2017 Order left
Bellco’s original claim for a debt in the amount of
$14,664.09 as the sole claim to be decided. The sole de­
fense remaining on behalf of McDonald was whether
Bellco had “written off” the debt and to what extent, if
any, McDonald relied to his detriment on any such al­
leged “write off.” 9/7/17 Order, \17.
11. The matter was then set for trial to com­
mence on April 2, 2018.
12. On December 27,2017 Bellco filed the within
MSJ. The motion included evidence of a Credit Request
dated 12/04/09 signed by McDonald (Mtn. Exhibit la),
payment history on the loan from 1/1/10 through
6/22/11 {Mtn. Exhibit 2), Right to Cure Default Letter

App. 13
dated 11/16/10 addressed to McDonald (Mtn. Exhibit
4), along with additional correspondence advising
McDonald that his payments on the debt were past
due, dated from 11/26/10 through 3/19/11 (Mtn. Exhib­
its 5, 6, 7 and 8).
13. Bellco further related that despite the
Court’s ruling on Bellco’s motion for judgment on the
pleadings, and McDonald’s asserted defense of a write­
off of the debt, McDonald had not produced any disclo­
sures of any claimed detrimental reliance on such
alleged write-off. MSJ, I10.
14. After granting several requests for addi­
tional time to file a response, McDonald filed his re­
sponse to the MSJ on March 5, 2018. In this response,
McDonald does not dispute that he obtained a loan
from Bellco stating that “Defendant took a loan to pay
COBAR attorney Miles Gersh.” MSJ Rsp, p.3 Neither
does he dispute that there remains an amount due on
the loan. Instead, McDonald reasserts his argument
that the statute of limitations bars the lawsuit, and
raises claims concerning the service of summons and
other alleged improper actions by Bellco, such as at­
tempts to locate a vehicle securing the loan. MSJ Rsp.
p.4. None of these assertions addresses the underlying
issue before the Court, i.e. Bellco’s debt and whether
such debt remains due and owing.
15. With regard to McDonald’s assertion that
Bellco wrote off the debt, he alleges that Bellco “waived
its right to litigate starting on August 12, 2011 ...
[when according to] ... its workflow record ‘they did

App. 14
not believe the case worth pursing as the Vehicle was
salvage.” MSJ Rsp, p.4. Even if this statement accu­
rately reflects Bellco’s intentions, McDonald does not
put forth any evidence that he was aware of such state­
ment prior to this lawsuit being filed, and more im­
portantly, does not explain or identify any action he
took based on this alleged write off which is detri­
mental to him in regard to this debt.
LEGAL ANALYSIS
Pursuant to C.R.C.P. 56, parties may move the
court for entry of summary judgment on some or all of
the issues presented in a case. C.R.C.P. 56(a) & (b).
Summary judgment is appropriate where there are no
genuine issues as to any material facts of the case and
the moving party is entitled to a judgment as a matter
of law. C.R.C.P. 56(c). As the United States Supreme
Court stated in Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 106 S.Ct. 2505, 2510 (1986), “[b]y its very
terms, this standard provides that the mere existence
of some alleged factual dispute between the parties
will not defeat an otherwise properly supported motion
for summary judgment, the requirement is that there
be no genuine issue of material fact.” (Emphasis in
original) Anderson, Id.
While there may be disputed issues concerning
whether or not Bellco improperly attempted to repos­
sess or otherwise take possession of the vehicle secur­
ing the loan, or whether Bellco surreptitiously gained
access to the gated community where McDonald was

App. 15
living, or whether Bellco previously failed to properly
perfect service of summons’ on McDonald, none of
these are matters that are material to the issue before
the court.
“Summary judgment is a useful procedural tool
because it enables a court to test whether there is an
actual basis for relief or defense, [citation omitted] If
there is no real basis for relief or defense, then a trial
is unnecessary because the court can decide the case
‘strictly as a matter of law.’ [citation omitted] People In
Interest of S.N. v. S.N., 329 P3d 276, 281 (Colo. 2014).
In this case, Bellco has established that it provided
credit to McDonald and that McDonald has failed to re­
pay the loan according to its terms. While the Court, in
considering Bellco’s motion for summary judgment, must
give McDonald “all favorable inferences that can be
drawn from the record . . . reliance upon allegations or
denials in the pleadings will not suffice when faced with
an affidavit affirmatively showing the absence of a tria­
ble issue of material fact.” [citation omitted] In re S.N.,
Id. at 282. Although McDonald made a general denial
of the debt in his original Answer, he does not provide
any factual basis, or even argument, that the debt does
not exist. In fact, the only argument McDonald raises
is that Bellco “wrote off’ the debt some time ago and
therefore is precluded from collecting on the debt.
First, McDonald does not provide any evidence
that Bellco “wrote off” the debt, other than a sentence
contained in the transaction history of the debt, which
seems to relate to the fact that the vehicle used to se­
cure the debt is only worth salvage and therefore not

App. 16
worth continued efforts to locate. However, even if the
quoted language from the transaction history does in­
dicate a decision to “write off” the debt, this does not
provide a defense to McDonald. Only if the actions of
Bellco caused McDonald to act in a way that is detri­
mental to his ability to defend this action, thereby as­
serting a defense of estoppel, would the asserted “write
off’ have any bearing on this case.
The application of the “doctrine of estoppel [as a
defense] requires more than mere delay. Estoppel re­
quires ‘(1) full knowledge of the facts; (2) unreasonable
delay in the assertion of available remedy; and (3) in­
tervening reliance by and prejudice to another.’ ” [cita­
tion omitted] Bijou Irr. Dist. V. Empire Club, 804 P2d
175, 186 (Colo. 1991). The Colorado Supreme Court
adopted the principles of promissory estoppel as set
forth in Restatement (Second) of Contract §90(1) (1981)
as follows:
A promise which the promisor should reason­
ably expect to induce action or forbearance on
the part of the promisee or a third person and
which does induce such action or forbearance
is binding if injustice can be avoided only by
enforcement of the promise. Kiely v. St. Ger­
main, 670 P2d 764, 767 (Colo. 1983)
The court in Kiely went on to explain that the doctrine
“discourages conduct which unreasonably causes fore­
seeable economic loss because of action or inaction in­
duced by a specific promise. Justifiable reliance on the
representations of another is the gist of this action.”
Kiely, Id. at 767. McDonald has failed to present any

App. 17
evidence that he was even aware of the language in the
transaction history prior to this lawsuit. He has also
failed to articulate, let alone support, any basis that he
relied on Bellco’s statements in the transaction history.
Finally, McDonald cannot demonstrate that he has
been damaged by possible reliance on the transaction
history statement. There is no basis for the Court to
conclude that the doctrine of estoppel, or detrimental
reliance applies in this case.
CONCLUSION
Bellco has demonstrated that there are no genuine
issues of material fact concerning McDonald’s debt to
Bellco, in dispute in this case. McDonald has not raised
any disputed facts concerning the existence of the debt
or the amount of the debt, nor has he established any
basis for application of the doctrine of estoppel as a de­
fense to the debt. Therefore, Bellco’s motion for entry
of summary judgment in its favor is GRANTED.
Judgment is entered in favor of Plaintiff
Bellco in the amount of $14,664.09.
Interest at the statutory rate of 8% per an­
num until paid is also awarded.
Plaintiff may submit a Bill of Costs and Motion and
Affidavit for attorneys’ fees within 14 days of today’s
Order.
Defendant may file any objection to the costs and fees
sought by Defendant within 14 days after Plaintiff files
for costs and fees.

App. 18
SO ORDERED THIS March 14, 2018.
BY THE COURT:
/s/ Elizabeth B. Volz
Elizabeth Beebe Volz
District Court Judge

[SEAL]

App. 19
ARAPAHOE DISTRICT
COURT
Court Address:
7325 South Potomac Street
Centennial, Colorado 80112
Bellco Credit Union
Plaintiff/
Third Party Defendant
V.

R. KIRK MCDONALD
Defendant/
Third Party Plaintiff

Filed
JAN 24 2018
Clerk of the
Combined Court
Arapahoe County,
Colorado
A COURT USE ONLY A
2017cvl62

Counsel for Defendant
R. Kirk McDonald private
attorney general - pro se
5856 S. Lowell Blvd.
Suite 32-163
Littleton, Colorado 80123
kirkmcdonald5 6@gmail. com
DEFENDANT/THIRD PARTY PLAINTIFF’S
NOTICE FOR REMOVAL OF CASE TO THE
UNTIED DISTRICT COURT FOR THE
DISTRICT OF COLORADO
COMES NOW, Third-Party Plaintiff/Defendant
Reed Kirk McDonald, hereafter (Defendant) provides
notice to this Court for removal of Arapahoe County
Case No. 2017cvl62 to the United States District

App. 20
Court for the District of Colorado as of January 24,
2018.
Provided for the Court is a complimentary and ser­
vice of the “Notice of Removal” to the federal courts
died in this Court January 24,2018 and in the District
of Colorado on January 24, 2018.

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Dist. of Colorado case No. 18cvl05
REED KIRK MCDONALD
Plaintiff,
v.
EAGLE COUNTY, a quasimunicipal corporation
and political subdivision of the State of Colorado
Defendant.
NOTICE OF REMOVAL OF ARPAHOE
COUNTY CASE NO. 2017cvl62 PURSUANT
TO 28 U.S.C. § 1441(A) & c(l)(A) COMPLAINT
AND JURY DEMAND
Defendant, Reed K. McDonald as pro se counsel
and Private Attorney General, hereby removes Case
Number 2017cvl62 from Colorado, Arapahoe County
District Court, to the United States District Court for

App. 21
the District of Colorado pursuant to 28 U.S.C. § 1441(a)
and c(l)(A).
This civil action is intertwined with District of
Colorado Case No. 18cvl05 currently before this Court.
Reed Kirk McDonald asserts the following in his mo­
tion for removal of Arapahoe County Case No.
2017cvl62 and states as follows:
I.

CONSTITUTIONAL CLAIM & STATEMENT
OF REMOVAL.

1. This removal action is brought after Arapahoe
County colluded with Bellco Credit Union (“Bellco”) to
prevent Reed Kirk McDonald (“Mr. McDonald”) from
presenting an affirmative Defense in the on-going case
by violating his civil rights. As pled in Dist. Of Colo.
Case No. 18cvl05; Mr. McDonald took a loan to pay
COBAR attorney Miles Gersh after Eagle County, Col­
orado violated his civil rights. Mr. McDonald prevailed
at the Colorado Court of Appeals against Eagle County
with the help of Mr. Gersh during 2011. Mr. Gersh then
died. Thereafter, Eagle County disobeyed orders of the
Court of Appeals. Eagle County in violation of Court of
Appeals issued secret writ, seizing Mr. McDonalds’
Bellco Credit Union and Public Service accounts; in vi­
olation of Court of Appeals order. Thus, Mr. McDonald
was prevented from paying off of his Bellco loan; Bellco
was informed of Eagle Counties misconduct.
2. Thereafter, Bellco’s collection department did
not pursue litigation, waiving its right to litigate.
Bellco in 2013 fired its collection department on mass

App. 22
and engaged in a pay-to-play agreement with David A.
Bauer of Nelson & Kennard. Bellco, Nelson and Kennard then repletely trespassed Mr. McDonalds gated
property, 6214 S. Datura St. Littleton, Colorado in vio­
lation of C.R.S. §§ 18-4-502, 18-4-503, and 18-4-504.
Additionally, Bellco trespassed Mr. McDonalds gated
property in violation City of Littleton Ordinance § 6-422; § 6-4-41.
3. Bellco admits in Rule 26 disclosures it violated
Colorado law and City of Littleton Ordinance repeat­
edly. Bellco also admits it asked neighbors to spy on
Mr. McDonalds activities in violation of the Constitu­
tion, Federal Fair Debt Collections Practices Act, Colo­
rado’s Fair Debt Collections Practices Act and Colorado
Supreme Court precedent. See, Rugg v. McCarty, 476
P.2d 753 (Colo. 1970).
“We do not attempt to comprehensively define the
right of privacy, nor to categorize the character of
all invasions which may constitute a violation of
such right. We merely observe that considerable
precedent exists in the area of oppressive conduct
by a creditor in connection with his efforts to col­
lect from his debtor.” Santiesteban v. Goodyear
Tire and Rubber Co.. 5 Cir., 306 F.2d 9: Cunning­
ham v. Securities Invest. Co. of St. Louis. 5 Cir.. 278
F.2d 600. reh. denied 5 Cir.. 281 F.2d 439: Bowden
v. Spiegal. Inc., 96 Cal.App.2d 793. 216 P.2d 571:
Brents v. Morgan. 221 Kv. 765. 299 S.W. 967. 55
A.L.R. 964: Booty v. Am. Finance Corp. of Shreve­
port. 224 So.2d 512 (La.App.): Pack v. Wise. 155
So.2d 909 (La.App.): Biederman’s of Springfield.
Inc, v. Wright. 322 S.W.2d 892 (Mo.): LaSalle

App. 23
Extension University v. Fogarty. 126 Neb. 457.253
N.W. 424. 91 A.L.R. 1491: Housh v. Peth. 165 Ohio
St. 35. 133 N.E.2d 340: Tollefson v. Price. 247 Or.
398. 430 P.2d 990. See also 138 A.L.R. 91; 168
A.L.R. 462; 14 A.L.R.2d 770; 15 A.L.R.2d 158.
“However, when unreasonable action in pursuing
a debtor is taken, which foreseeably will probably
result in extreme mental anguish, embarrass­
ment, humiliation or mental suffering and injury
to a person possessed of ordinary sensibilities, un­
der the same or similar circumstances, then such
conduct falls within the forbidden area and a
claim for invasion of privacy may be asserted.”
Reed v. Real Detective Pub. Co.. 63 Ariz. 294. 162
P.2d 133: Cason v. Baskin. 155 Fla. 198. 20 So.2d
243: Davis v. General Finance & Thrift Corp.. 80
Ga.App. 708. 57 S.E.2d 225: Meetze v. Associated
Press. 230 S C. 330. 95 S.E.2d 606.
4. Nelson and Kennard at the behest of them­
selves and Bellco filed a civil action against Mr.
McDonald on March 23, 2017 after Colorado’s statute
of Limitations expired (6 years). Bellco in its Com­
plaint swayed the Arapahoe County to violate the law
by making the following false representation, “Mr.
McDonald borrowed money to purchase a car.”
5. After Bellco admitted it violated the Constitu­
tion and Colorado law invading Mr. McDonalds’ pri­
vacy. Bellco filed numerous ex parte motions to redact
its acknowledged and disclosed wrongdoing from the
courts Record. Arapahoe County granted Bellco’s ex
parte motion in violation of Colorado Rules of Civil

App. 24
Procedure (C.R.C.P.) §§ 121(c); 121 l-15(l)(b); 121 115(8). Thereafter, Bellco refused to participate in Dis­
covery.
6. Colorado’s Supreme Court promulgated rules
for its lower courts to ensure due process and equal
protections under law. These rules are known as Rules
of Civil Procedure (C.R.C.P.) See the following rules of
civil procedure under Colorado law:
C.R.C.P. § 121(c); Practice Standards,
C.R.C.P. 121 § 1-15(8); The Parties Shall Have
a Duty to Confer;
C.R.C.P. 121 § 1-15(9); Designation of Unop­
posed Motions;
C.R.C.P. 121 § l-15(l)(b);Time to Respond - 21
Days.
7. While the case resided in Arapahoe County,
Bellco repeatedly engaged in motion practice without
conferring {exparte) with opposing counsel Mr. McDon­
ald. More importantly, Arapahoe County granted mul­
tiply Bellco ex parte motions after Bellco refused to
confer within a matter of days without notice to Mr.
McDonald in violation of C.R.C.P. 121(c); C.R.C.P. 121
§ 115(l)(b); and the Constitution.
8. Thus, Arapahoe County granted Bellco the
right to conceal its wrongdoing. Thereby, violated due
process, the equal protection clause of the Constitu­
tion, Colorado law and Supreme Court of the United
States law.

App. 25
II. FEDERAL QUESTIONS.
9. Mr. McDonald asserts claims that involve fed­
eral questions under the United States Constitution
specifically, the 1st, 5th and 14th Amendments requir­
ing due process, prior to the taking of property, equal
protection of the law, and the right to privacy for citi­
zens of the United States of America, regardless of po­
litical influence and or economic status of the parties.
10. Mr. McDonald asserts claims that involve
federal law, 15 U.S.C. § 1692 known as the federal Fair
Debt Collections Practices Act (“FDCPA”).
11. Further, Mr. McDonald asserts claims that
involve federal law, 15 U.S.C. § 1681, known as the fed­
eral Fair Credit Reporting Act (“FCRA”).
12. Additionally, Mr. McDonald asserts claims
that involve Colorado law C.R.S. § 12-14101 et al.,
known as the Colorado Fair Debt Collection Practices
Act (“CFDCPA”).
III. PARTIES.
13. Reed Kirk McDonald is a resident of Colo­
rado, Arapahoe County where his principal place of
business and residence was 6214 South Datura Street,
Littleton, Colorado, 80120. Currently, resides at 4059
West. Hillside PL, Littleton, Colorado 80123.
14. Bellco Credit Union is a banking institution
in the State of Colorado, whose counsel of record is

App. 26
properly addressed as, Nelson & Kennard 2594 S.
Lewis Way, Suite A, Lakewood, Colorado 80227.
IV. JURISDICTION AND VENUE.
15. This Court’s jurisdiction is invoked pursuant
to 28 U.S.C. § 1331 as the Complaint raises federal
questions arising from the Bellco’s violations of Mr.
McDonalds civil rights secured by the United States
Constitution under its 1st, 5th and 14th Amendments.
Specifically, taking of property without due process; vi­
olation of the equal protection clause of the Constitu­
tion; false credit reporting; and invasion of privacy.
16. This Court also holds jurisdiction pursuant
to 28 U.S.C. § 1441(a) and c(l)(A).
17. Further, this court holds supplemental juris­
diction pursuant to 28 U.S.C. § 1367(a).
18. Venue is proper in this judicial district under
28 U.S.C. § 1391 as Bellco Credit Union, operates and
conducts business in Colorado which is the subject of
this action in the district.
19. Bellco is subject to jurisdiction of the Court
pursuant to its violations of 15 U.S.C. § 1692 and 15
U.S.C. § 1681.
20. Bellco is subject to Colorado’s statute of lim­
itations which prevents litigation after an alleged debt
tolled 6 years. C.R.S. § 13-80-101 et al.
21.

App. 27
V. GENERAL ALLEGATIONS &
UNDISPUTED FACTS OF THE CASE.
A. Bellco filed a civil action after statute
of limitation tolled.
22. Mr. McDonald did not take a loan to purchase
a car, but required a loan to pay COBAR attorney Miles
Gersh. With the Help of Mr. Gersh, Mr. McDonald pre­
vailed against Eagle County after the Court of Appeals
announced its findings of fact; Court of Appeals ruled
on October 5,2011 and again on November 2,2011 Ea­
gle County violated Mr. McDonalds civil rights of due
process and equal protection under law, and attempted
to make an end-run around the final judgment rule
among other violations. See, Dist. of Colo. Case No.
18cvl05 - Exhibit 1 & Exhibit 2.
23. Eagle County refused to obey Court of Ap­
peals after Mr. Gersh died; then in secret issued writ
seizing Mr. McDonalds’ Bellco and Public Service bank
accounts. Thus, Mr. McDonald could not make expend­
itures. See Dist. Of Colo. Case No. 18cvl05 - Exhibit 6
& Exhibit 7.
24. Bellco informed of Eagle Counties miscon­
duct did not pursue litigation against Mr. McDonald.
Thus, Bellco waived their right to litigate the alleged
debt.
25. Bellco on October 31, 2012 wrote-off the al­
leged debt. Exhibit 1.
26. Bellco filed a civil action against Mr. McDon­
ald in Arapahoe County after the statute of limitations

App. 28
tolled in 2017 to recover alleged debt; Bellco’s litigation
is barred, because the statute of limitations tolled after
6 years. See C.R.S. § 13- 80-101 et al.
27. Arapahoe County in violation of Colorado
law allowed Bellco to persevere its claims in its 2017
civil action.
B. Bellco Admits They Violated Federal
and State Law
28. Bellco on or about December 15th of 2017
supplied its first Rule 26 Disclosures. In that disclo­
sure, Bellco admits for years it had been filing lawsuits
in county court against Mr. McDonald. Moreover, for
years Bellco had been trespassing Mr. McDonalds
gated property but refused to serve their complaints.
Thus, Bellco never effectuated any civil action.
29. As a result of these lawsuits Mr. McDonalds
insurance policies were canceled by his insurance pro­
vider. State Farm, Mr. McDonalds insurance provider
cited in their cancelation letter, Mr. McDonald was sub­
ject to multiply civil actions. Mr. McDonald was a State
Farm customer for 40 years.
30. Mr. McDonalds switched his insurance to All­
state. Allstate canceled Mr. McDonalds insurance be­
cause they also stated, he was subject to multiply civil
litigations.
31. Mr. McDonalds property 6214 S. Datura St.,
Littleton, Colorado is a 100% gated property. Bellco

App. 29
admits in its Rule 26 Disclosures its agents trans­
gressed the gated entrance on multiply occurrences.
32. Bellco admitted in its Rule 26 Disclosures it
violated Mr. McDonalds right to privacy by having its
agents trespass the gated property.
33. Bellco employee admitted under oath, Bellco
provided no training regarding legal or illegal collec­
tion procedures.
34. It is a violation of Colorado law to trespass
gated properties. See C.R.S. §§ 18-4-502; 18-4-503; 184-503.
35. It’s also a violation of City of Littleton ordi­
nance to trespass a gated property. See City of Little­
ton Ordinance; § 6-4-41 and § 6-4-22.
36. On January 30, 2017 Mr. McDonalds’ vehicle
was stolen from his gated property. Bellco reports it did
not repossess the vehicle. Thus, Mr. McDonald at­
tempted to file a stolen vehicle report with the City of
Littleton Police; the police refused to take such report.
Therefore, Mr. McDonald requested lien holder (Bellco)
cosign a stolen vehicle report; Bellco refused.
C. Bellco refuses to obey Colorado’s Rules
of Civil Procedure.
37. C.R.C.P. 121 § 1-15(8) states that “[m]oving
counsel shall confer with opposing counsel before filing
a motion.”

App. 30
38. The clear purpose of the Colorado Rule of
Civil Procedure 121 is to require parties to identify and
attempt to resolve emerging issues before engaging in
motion practice. The plain language definition of the
word “confer” means “[t]o meet in order to deliberate
together or compare views; consult.” See, American
Heritage Dictionary of the English Language.
39. Colorado courts interpret the word “shall” in
C.R.C.P. 121 § 1-15(8) as creating a mandatory require­
ment.
40. Movant Bellco, in order to satisfy the duty to
confer pursuant to Colorado law must speak with op­
posing counsel Mr. McDonald before engaging in mo­
tion practice. See C.R.C.P. § 121(c) and C.R.C.P. 121
§ 1-15(8).
41. On or about January 17, 2018 Bellco once
again engaged in motion practice without conferring.
Bellco filed motion to redact their admitted wrongdo­
ing from the Arapahoe County Record and to limit Dis­
covery without conferring with Mr. McDonald.
42. Arapahoe County granted Bellco’s motion to
redact their wrongdoing from the courts Record with­
out Mr. McDonald heard on issue and without notice in
violation of the Rules of Civil Procedure; C.R.C.P.
§ 121(c); C.R.C.P. 121 § 1-15(8); C.R.C.P. 121§ 1-15(9);
and C.R.C.P. 121§ 115(l)(b).
43. Arapahoe County also granted Bellco’s mo­
tion to limit Discovery without Mr. McDonald heard on
issue although Bellco failed to confer prior to engaging

App. 31
in motion practice in violation of the Rules of Civil Pro­
cedure; C.R.C.P. § 121(c); C.R.C.P. 121 §1-15(8);
C.R.C.P. 121§ 1-15(9); C.R.C.P. 121§ l-15(l)(b). Bellco
having Arapahoe County in its pocket refused to par­
ticipate in Discovery.
VI. CAUSES OF ACTION
A. First Cause of Action (Violation
of the 5th & 14th Amendment of the
United States Constitution)
44. Mr. McDonald hereby fully incorporates each
and every allegation contained in paragraphs 1-43 of
the Notice of Removal and Complaint.
45. Upon information and belief, Bellco know­
ingly made, used or caused to be made or used false
record or statement in contravention of Federal law
and State law.
46. Upon information and belief, Bellco moved
the state court to redact its admitted wrongdoing from
in its own Rule 26 Disclosers without conferring with
opposing counsel.
47. Upon information and belief, Arapahoe
County granted Bellcos’ ex parte motion to redact its
wrongdoing for the courts Record without opposing
counsel heard on Bellcos’ motion in violation of
C.R.C.P. § 121(c); C.R.C.P. 121 § 1-15(8); C.R.C.P. 121
§ l-15(l)(b); and C.R.C.P. 121 § 1-15(9).
48. Upon information and belief, Arapahoe
County had actual knowledge of Bellcos’ misconduct.

App. 32
In deliberate ignorance and in reckless disregard of the
Constitution and its provisions for equal justice under
the law and taking of property without due process
Bellco schemed with Arapahoe County to violate Mr.
McDonalds due process rights in its proceedings.
49. Upon information and belief, Bellco and
Arapahoe County in deliberate ignorance and reckless
disregard of violation of C.R.C.P. § Rule 26 limited Mr.
McDonalds Discovery to shape and control the out­
come of the Arapahoe County case in violation of the
Constitution.
50. Upon information and belief, Bellco in its ex
parte motion moved Arapahoe County to redact its
wrongdoing from the courts’ record without notice to
Mr. McDonald. Arapahoe County in deliberate igno­
rance and in reckless disregard of due process and in
violation of C.R.C.R § 121(c) and C.R.C.R 121 § 115(l)(b) redacted Bellcos’ wrongdoing in Arapahoe
County Case No. 2017cvl62 without allowing Mr.
McDonald to be heard on motion.
51. Bellcos’ actions violate the 5th and 14th
Amendments to the United States Constitution.
52. Bellcos’ actions violate Article II, Bill of
Rights, Section 6 and Section 25 of the Colorado Con­
stitution.
53. As a result of Bellcos’ violations of the United
States Constitution and Colorado Constitution, Bellco
with the help of Arapahoe County via ex parte motions

App. 33
concealed years of Bellcos’ misconduct in violation of
Colorado and Federal law.
54. As a result of Bellcos’ actions, Mr. McDonald
has suffered irreparable harm, loss of property, loss of
income, and loss of his retirement account in amounts
to be determined at trial.
B. Second Cause of Action
(Violation of the 1st Amendment of the
United States Constitution)
55. Mr. McDonald hereby fully incorporates each
and every allegation contained in paragraphs 1-43 of
the Notice of Removal and Complaint.
56. Upon information and belief, Bellco know­
ingly made, used or caused to be made or used false
record or statement in contravention of Federal law
and State law.
57. Upon information and belief, Bellco know­
ingly violated Mr. McDonalds right to privacy by hav­
ing its agents trespass the gated property where he
resided. In deliberate ignorance and in reckless disre­
gard of the Constitution, Colorado law, and City of Lit­
tleton ordinance, Bellco and its employees and or
agents willfully trespassed the gated property to har­
ass Mr. McDonald.
58. Upon information and belief, Bellco recruited
neighbors to spy on Mr. McDonalds activities. Bellco in
reckless disregard of the Constitution took unreasona­
ble action in pursuing an alleged debt, causing Mr.

App. 34
McDonald extreme mental anguish, embarrassment,
humiliation and mental suffering.
59. Upon information and belief, Bellco waived
its right to litigate the alleged debt after it was in­
formed of the Eagle Counties misconduct and acted
upon the illegal writ seizing Mr. McDonalds accounts.
60. Bellcos actions violate the 1st Amendment to
the Constitution, Colorado law and City of Littleton
Ordinance.
61. As a result of Bellcos’ violations of the United
States Constitution, Colorado law and City of Littleton
Ordinance, Bellco caused a disharmony in the neigh­
borhood creating a false belief Mr. McDonald was a
criminal. Which resulted in his neighbors looking upon
him with suspicion and rejection.
As a result of Bellcos’ actions, Mr. McDonald
has suffered irreparable harm, loss of property, loss of
income, loss of his retirement account and extreme
mental anguish in amounts to be determined at trial.
62.

C. Third Cause of Action
(Violation of 15 U.S.C. § 1692 - FDCPA/
15 U.S.C. § 1681 - FCRA)
63. Mr. McDonald hereby fully incorporates each
and every allegation contained in paragraphs 1-43 of
the Notice of Removal and Complaint.
64. Upon information and belief, Bellco know­
ingly made, used or caused to be made or used false

App. 35
record or statement in contravention of Federal law
and State law.
65. Upon information and belief, Bellco know­
ingly filed a civil action for an alleged debt after the
statute of limitations tolled.
i

J

66. Upon information and belief, Bellco failed in
its obligation to obey laws passed by the people for the
State of Colorado, barring litigation of an alleged debt.
67. Upon information and belief, Bellco had ac­
tual knowledge the statute of limitations had tolled.
Bellco to sway Arapahoe County into allowing the civil
action made the false representation in their Com­
plaint, Mr. McDonald acquired a loan to purchase a car.
68. Upon information and belief, Bellco repeat­
edly filed numerous complaints in Arapahoe County
which led to Mr. McDonalds insurance providers can­
celing his insurance.
69. Upon information and belief, Bellco with in­
tent to defraud the court utilized old case numbers in
a scheme making an end-run around Colorado’s stat­
ute of Limitations.
70. Bellcos’ actions violate FDCPA 15 U.S.C
§ 1692d(l); 15 U.S.C 1692d(2) and (5); 15 U.S.C.§ 1692d(6);
15 U.S.C. 1692c(c); 15 U.S.C. § 1692b.

71. As a result of Bellcos’ violations of the federal
Fair Debt Collection Practices Act 15 U.S.C. § 1692 et
al., Mr. McDonald has spent countless hours and time

App. 36
away from business defending himself in a civil action
where Bellco is without standing.
72. As a result of Bellcos’ actions, Mr. McDonald
has suffered irreparable harm, loss of property, loss of
income, loss of his retirement account in amounts, and
extreme mental anguish to be determined at trial.
D. Fourth Cause of Action
(Violation of 12 C.R.S. § 12-14-101 CFDCPA)
73. Mr. McDonald hereby fully incorporates each
and every allegation contained in paragraphs 1-43 of
the Notice of Removal and Complaint.
74. Upon information and belief, Bellco know­
ingly made, used or caused to be made or used false
record or statement in contravention of Federal law
and State law.
75. Upon information and belief, Bellco with in­
tent to defraud the court utilized old case numbers in
a scheme making an end-run around Colorado’s stat­
ute of Limitations.
76. Upon information and belief, Bellco used de­
ceptive forms to create a false belief that Mr. McDonald
had purchased a car via a loan from Bellco.
77. Upon information and belief, Bellco used
false or misleading representations as a means for the
collection of an alleged debt.

App. 37
78. Bellcos’ actions violate CFDCPA specifically,
C.R.S. § 12-14-107(1) & (lXbXI) & (l)(e); C.R.S. § 1214-108(1).
79. As a result of Bellcos’ violations of the Colo­
rado Fair Debt Collection Practices Act, C.R.S. § 12-14101 et al., Mr. McDonald has spent countless hours and
time away from business defending himself in a civil
action where Bellco is without standing.
80. As a result of Bellcos’ actions, Mr. McDonald
has suffered irreparable harm, loss of property, loss of
income, loss of his retirement account, and extreme
mental anguish in amounts to be determined at trial.
VII. Memo to The Court.
Mr. McDonald has requested and paid for a digital
copy of the Arapahoe County Record. As soon as the
digital Record is completed by Arapahoe Counties, a
copy of the Record will be filed in this Court.
Respectfully submitted this 24th day of January, 2017,
Kirk McDonald/ Pro se/ Private Attorney General
Date

Signatutre________________

App. 38
Colorado Supreme Court
2 East 14th Avenue
Denver, CO 80203

DATE FILED:
November 13, 2017

Certiorari to the Court
of Appeals, 2016CA652
District Court, Arapahoe
County, 2014CV200074
Petitioner:

Supreme Court Case No:
2017SC465

Kirk McDonald,
v.
Respondent:
CitiBank N.A., as Trustee for
Chase Funding Mortgage
Loan Asset-Backed Certifi­
cates, Series 2002-4.

ORDER OF COURT
Upon consideration of the Petition for Writ of Cer­
tiorari to the Colorado Court of Appeals and after re­
view of the record, briefs, and the judgment of said
Court of Appeals,
IT IS ORDERED that said Petition for Writ of Cer­
tiorari shall be, and the same hereby is, DENIED.

BY THE COURT, EN BANC, NOVEMBER 13,
2017.

App. 39
Colorado Supreme Court
2 East 14th Avenue
Denver, CO 80203

DATE FILED:
September 23, 2019

Certiorari to the Court
of Appeals, 2018CA689
District Court, Arapahoe
County, 2014CV162
Petitioner:
R. Kirk McDonald,

Supreme Court Case No:
2019SC475

v.
Respondent:
Bellco Credit Union.
ORDER OF COURT
Upon consideration of the Petition for Writ of Cer­
tiorari to the Colorado Court of Appeals and after re­
view of the record, briefs, and the judgment of said
Court of Appeals,
IT IS ORDERED that said Petition for Writ of Cer­
tiorari shall be, and the same hereby.is, DENIED.
BY THE COURT, EN BANC, SEPTEMBER 23,
2019.
JUSTICE BOATRIGHT does not participate.

App. 40
Colorado Supreme Court
2 East 14th Avenue
Denver, CO 80203

DATE FILED:
October 17, 2019

Certiorari to the Court
of Appeals, 2018CA689
District Court, Arapahoe
County, 2017CV162
Petitioner:
R. Kirk McDonald,

Supreme Court Case No:
2019SC475

v.
Respondent:
Bellco Credit Union.
ORDER OF COURT
Upon consideration of the Motion for Rehearing
filed in the above cause, and now being sufficiently ad­
vised in the premises,
IT IS ORDERED that said Motion shall be, and
the same hereby is, DENIED Pursuant to C.A.R.
40(c)(3). NO Petition for rehearing may be filed after
issuance of an order denying a Petition for Writ of Cer­
tiorari.
BY THE COURT, OCTOBER 17, 2019.

App. 41
RID:D0032017CV000162-000154
Print Minute Orders 1/25/18 10:32 AM
Status:
District Court, Arapahoe County
Case#: 2017 CV 000162 Div/Room:202 Type: Money
BELLCO CREDIT UNION, vs. MCDONALD. R KIRK
FILE DATE EVENT/FILING/PROCEEDING
1/25/2018
Minute Order (print)
DATE FILED: January 25, 2018
JUDGE: EBV CLERK:
REPORTER:
STATUS CONFERENCE
JUDGE: VOLZ CLERK: DJB DIV. 202
FTR: 10:02 AM
CSL DAVID BAUER AND RYAN STEVENS APPEAR
FOR PLAINTIFF
DEFENDANT R. KIRK MCDONALD DOES NOT
APPEAR
THE COURT RECEIVED TODAY VIA EMAIL DEF’S
PETITION FOR REMOVAL TO FEDERAL COURT
AND REQUEST TO VACATE TODAYS HEARING.
THE DOCUMENTS HAVE NOT BEEN FILED WITH
THE CLERK’S OFFICE.
*

*

*

